No. 20-

 

 

IN THE

Supreme Court of the United States

PHILIP PILEVSKY, MICHAEL PILEVSKY, SETH PILEVSKY,
PRIME ALLIANCE GROUP, LTD., AND SUTTON OPPORTUNITY

LLC,
Petitioners,
Vv.
SUTTON 58 ASSOCIATES LLC,
Respondent.

On Petition for a Writ of Certiorari to the
Court of Appeals of the State of New York

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,818 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 20, 2021.

Colin Casevaan

Wilson-Epes Printing Co., Inc.
